.lrn tbe 5>ttpreme <!rourt of tbe Wniteb ~tate~
GADSDEN INDUSTRIAL PARK, LLC,
Petitioner,

V.
UNITED STATES,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FEDERAL CIRCUIT

REPLY IN SUPPORT OF PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF SERVICE
I, Avrum Levicoff, counsel of record for Petitioner Gadsden Industrial Park,
LLC, and a member of the Bar of this Court, hereby certify that on the

1 st

day of

June, 2021, I caused to be served one (1) copy of the Reply in Support of Petition for
a Writ of Certiorari in the above-referenced case by first-class mail, postage
prepaid, upon each of the counsel for Respondent as listed below:

(L0838617. l}

Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave, N.W,
Washington, D.C. 20530-0001
Counsel for Respondent
Eric J . Singley, Esquire
Eric.j.singley@usdoh.gov
U.S. Department of Justice - Civil Div.
P .O. Box 480
Ben Franklin Station
Washington, DC 20044
Counsel for Respondent
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Reply in Support of Petition for a Writ of Certiorari was transmitted
to counsel for Respondent at the following email addresses: Eric.j.singley@usdoj.gov;
Supremectbriefs@usdoj.gov
I further certify that all parties required to be served

Avr
Le co
Counsel of Rec
Edward I. Levicoff, Esquire
The Levicoff Law Firm, P.C.
4 PPG Place, Suite 200
Pittsburgh, PA 15222
(412) 434-5200
ALevicoff@Levicofflaw.com
ELevicoff@Levicofflaw.com
Counsel for Petitioner

{L0838617. l )

